No. 19-371
INTHE

$'Upreme QCourt of tbe mlniteb $tates
STEPHENS. WISE TEMPLE,

Petitioner,
v.
JULIE

Su, as Labor Commissioner, etc.,

Respondent.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of Amicus Curiae Union of Orthodox Jewish Congregations of America in
Support of Petitioner contains 5,695 words and complies with the word limitation
established by Rule 33.l(g)(x) of the Rules of this Court.
Dated: October 21, 2019

